TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Complete Actions Were Not Taken to
                    Validate the Best Software Solution Was
                     Chosen for the Private Debt Collection
                                    Program



                                           April 10, 2007

                              Reference Number: 2007-20-065




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    April 10, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Complete Actions Were Not Taken to Validate
                                 the Best Software Solution Was Chosen for the Private Debt Collection
                                 Program (Audit # 200620006)

 This report presents the results of our review of the Filing and Payment Compliance Project
 (hereafter referred to as the Project). The overall objective of this review was to determine
 whether the Internal Revenue Service (IRS) revalidated its decision to purchase commercially
 available software for the Project.
 The IRS does not actively attempt to collect billions of dollars in delinquent taxes because it does
 not have sufficient staff, collection processes, or systems. To address this issue, in 2001, the IRS
 initiated the Project, which was initially designed to route collection cases to the appropriate IRS
 collection unit. The IRS later added plans for the Private Debt Collection program to the Project.
 Under the Private Debt Collection program, the IRS has the authority to hire private collection
 agencies to assist in the collection of delinquent taxes. In July 2004, the Department of the
 Treasury estimated the IRS will collect $1.4 billion through the program over the next 10 years
 (Fiscal Years 2006-2015).1

 Impact on the Taxpayer
 The IRS compared several alternatives to identify the best solution for the Project. Based on the
 comparison, the IRS decided to purchase commercially available software. In 2005, we




 1
     Information obtained from the Department of the Treasury. We did not verify the accuracy of this information.
                                Complete Actions Were Not Taken to Validate
                               the Best Software Solution Was Chosen for the
                                      Private Debt Collection Program


determined the documentation prepared to support the Alternatives Analysis2 was not accurate,
complete, and timely.3 The IRS agreed with our conclusion and planned corrective actions to
revalidate its decision to purchase commercially available software for the Project. However, the
IRS did not adequately complete those corrective actions and thus cannot prove it spent taxpayer
funds wisely.

Synopsis
The IRS has implemented the first phase of the Private Debt Collection program. As of
December 2006, the IRS reported the private collection agencies had collected about
$11 million.4 In addition, based on our December 2005 report recommendation, the IRS hired a
contractor to estimate the acquisition cost for one alternative.
While the IRS did hire a contractor to provide an estimate for
part of one alternative, the IRS’ efforts to revalidate its                     Corrective actions planned to
                                                                                    address our previous
decision to purchase commercially available software for the                   recommendation were not fully
Project were incomplete. For example, neither the IRS nor its                           implemented.
contractor estimated maintenance costs or benefits for one
alternative. Additionally, the IRS did not develop estimates
and supporting documentation for the acquisition and
maintenance costs for another alternative.
As we were completing our audit, the IRS implemented the last phase of the Private Debt
Collection program and cancelled the remaining phase. Because the IRS significantly changed
the scope of the Project, Department of the Treasury regulations require the next Capital Asset
Plan and Business Case (Exhibit 300) for the Project to include a new Alternatives Analysis.
The Project will be approaching “steady state”5 as it submits its next Exhibit 300. Once the
Project is considered steady state, it will no longer be required to prepare an Alternatives
Analysis. Therefore, it may not be cost effective to expend significant resources developing
estimates and supporting documentation for a new Alternatives Analysis.



2
  The Alternatives Analysis is a critical component of the Capital Asset Plan and Business Case (Exhibit 300), which
must be submitted to the Office of Management and Budget annually for major information technology investments.
The Exhibit 300 is used to request funds, monitor the progress of projects, and improve management decision
making related to information technology investments.
3
  The Alternatives for Designing and Developing the Filing and Payment Compliance Project Should Be
Revalidated (Reference Number 2006-20-026, dated December 2005).
4
  Information obtained from IRS briefings related to the Private Debt Collection program. We did not verify the
accuracy of this information.
5
  Steady state refers to ongoing operations and support of the system, which begin after the business processes and
system have been installed and have begun performing business functions.
                                                                                                                  2
                           Complete Actions Were Not Taken to Validate
                          the Best Software Solution Was Chosen for the
                                 Private Debt Collection Program



Recommendation
We recommended the Chief Information Officer work with officials from the Department of the
Treasury and the Office of Management and Budget to determine the level of effort required to
develop estimates and supporting documentation for a new Alternatives Analysis for submission
to the Department of the Treasury in June 2007.

Response
The Chief Information Officer agreed with our recommendation and stated the IRS would use
our observations as lessons learned for preparing future Alternatives Analysis. The Chief
Information Officer also stated the IRS will commence working with the Department of the
Treasury and the Office of Management and Budget to determine an appropriate solution for
fulfilling the Exhibit 300 requirements. Management’s complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                 3
                                     Complete Actions Were Not Taken to Validate
                                    the Best Software Solution Was Chosen for the
                                           Private Debt Collection Program




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Efforts to Revalidate the Alternatives Analysis Were Not Sufficient ..........Page 3
                    Recommendation 1:..........................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Enterprise Life Cycle Overview ..........................................Page 10
          Appendix V – Management’s Response to the Draft Report .......................Page 14
       Complete Actions Were Not Taken to Validate
      the Best Software Solution Was Chosen for the
             Private Debt Collection Program




             Abbreviations

ELC    Enterprise Life Cycle
IRS    Internal Revenue Service
                                 Complete Actions Were Not Taken to Validate
                                the Best Software Solution Was Chosen for the
                                       Private Debt Collection Program




                                             Background

As of September 30, 2006, the gross accounts receivable to the Internal Revenue Service (IRS)
totaled $271 billion.1 However, the IRS does not actively attempt to collect billions of dollars in
delinquent taxes because it does not have sufficient staff, collection processes, or systems. In
2001, the IRS initiated the Filing and Payment Compliance Project (hereafter referred to as the
Project) to address these shortcomings and increase collections.
The initial design for the Project included plans to implement commercially available software
that would identify the most appropriate collection method for each collection case and route the
case to the appropriate collection unit within the IRS. The IRS later developed plans to identify
and route simple collection cases to private collection agencies and incorporated these plans into
the Project.
The revised scope of the Project consisted of three releases.2 The first release, the Private Debt
Collection program, is designed to route simple collection cases to private collection agencies.
The IRS received authority in October 2004 to hire private collection agencies when the
President signed the American Jobs Creation Act of 2004.3 In July 2004, the Department of the
Treasury estimated the IRS will collect $1.4 billion through the program over the next 10 years
(Fiscal Years 2006-2015).4 The second release would implement plans to route collection cases
to the appropriate collection units within the IRS Automated Call Sites5 and campuses.6 The
third release would implement plans to route collection cases to the IRS Collection Field
function.7
After reactivating the Project, the IRS identified and evaluated three alternatives to select the
best solution for the Project. Based on the estimated costs, benefits, and other financial
indicators for each alternative, the IRS decided the best solution was to purchase commercially
available software. During a prior audit of the Project,8 we could not verify whether the IRS had


1
  We did not verify the accuracy of this information.
2
  A release is a specific edition of software.
3
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
4
  Information obtained from the Department of the Treasury. We did not verify the accuracy of this information.
5
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
6
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
7
  A unit consisting of revenue officers who handle personal contacts with taxpayers to collect delinquent accounts or
secure unfiled returns.
8
  The Alternatives for Designing and Developing the Filing and Payment Compliance Project Should Be
Revalidated (Reference Number 2006-20-026, dated December 2005).
                                                                                                             Page 1
                               Complete Actions Were Not Taken to Validate
                              the Best Software Solution Was Chosen for the
                                     Private Debt Collection Program



selected the best solution for the Project because supporting documentation was not always
accurate, complete, and timely. We recommended the Chief Information Officer complete
corrective actions to validate the IRS’ decision to purchase commercially available software for
the Project. In August 2006, the IRS reported all corrective actions were complete.
In August 2006, the IRS also significantly reduced the scope of the Project by canceling plans to
route collection cases to units within the IRS Automated Call Sites and campuses (Release 2)
and the IRS Collection Field function (Release 3). As we were completing our audit work, the
IRS also cancelled the last phase of the Private Debt Collection program and implemented the
final phase of the software.
Additional audits have been, or are being, conducted of the Private Debt Collection program by
the Treasury Inspector General for Tax Administration.9 This audit was performed while
changes were being made at the project level, including a change in the scope and schedule for
the Project. Any changes that have occurred since we concluded our analyses in December 2006
are not reflected in this report. As a result, this report may not reflect the most current status of
the Project.
This review was performed at the Modernization and Information Technology Services
organization office in New Carrollton, Maryland, during the period August through
December 2006. The audit was conducted in accordance with Government Auditing Standards.
This review was part of our Fiscal Year 2007 audit plan for reviews of the Modernization and
Information Technology Services organization and contributes to our efforts to address the Fiscal
Year 2007 Major Management Challenge to assess the progress of the “Modernization of the
Internal Revenue Service.” Detailed information on our audit objective, scope, and methodology
is presented in Appendix I. Major contributors to the report are listed in Appendix II.




9
  The Private Debt Collection Request for Quotation Outlines Adequate Procedures and Controls (Reference
Number 2005-10-156, dated September 2005); Management Needs to Continue Monitoring Some Case Selection
Issues As the Private Debt Collection Program Is Implemented (Reference Number 2006-30-064, dated April 2006);
The Revised Private Debt Collection Request for Quotation Adequately Addressed Prior Deficiencies in the
Solicitation Methodology (Reference Number 2006-10-078, dated April 2006); and The Private Debt Collection
Program Was Effectively Developed and Implemented, but Some Follow-up Actions Are Still Necessary (Reference
Number 2007-30-066, dated March 27, 2007).
                                                                                                      Page 2
                                 Complete Actions Were Not Taken to Validate
                                the Best Software Solution Was Chosen for the
                                       Private Debt Collection Program




                                       Results of Review

Efforts to Revalidate the Alternatives Analysis Were Not Sufficient
The IRS acquired commercially available software for the Private Debt Collection program to
identify and route specific collection cases to private collection agencies. The software acquired
is a major investment. Therefore, the IRS must prepare and submit a Capital Asset Plan and
Business Case (Exhibit 300) annually to the Office of Management and Budget, which uses the
Exhibit 300 to allocate funds for information technology investments. In addition, agencies use
the Exhibit 300 to request funds, monitor the progress of projects, and improve management
decision making related to information technology investments.
A key component of the Exhibit 300 is the Alternatives Analysis, which is required for projects
in the planning and acquisition phase and is used to identify, compare, and assess viable
alternatives for a project and document the rationale for selecting the chosen alternative. The
Alternatives Analysis must include at least three viable alternatives and document the criteria
used to compare and assess the alternatives. The criteria used to compare and assess the
alternatives include estimated costs, benefits, and other financial indicators, such as return on
investment10 and net present value.11 Department of the Treasury guidelines require the
Alternatives Analysis to be as accurate as possible and documentation to be maintained to
support the estimated costs, benefits, and financial indicators.
The IRS prepared an Exhibit 300 and Alternatives Analysis for the Project to support its decision
to purchase commercially available software. The Alternatives Analysis included the following
alternatives:
     •   Buy Alternative: Implement commercially available software to improve collection
         processes, and contract with private collection agencies to pursue delinquent taxes.
     •   Build Alternative: Modify the current processing environment.




10
   The net profit or loss in an accounting period divided by the capital investment used during the period, usually
expressed as an annual percentage return.
11
   Used to analyze the profitability of an investment or project. Net present value is the present value of an
investment’s future net cash flows minus the initial investment.
                                                                                                              Page 3
                                 Complete Actions Were Not Taken to Validate
                                the Best Software Solution Was Chosen for the
                                       Private Debt Collection Program



     •   Full-Time Equivalent12 Alternative: Obtain an additional 1,600 full-time equivalents to
         work collection cases.

The IRS completed some steps to revalidate the Alternatives Analysis and
implemented the first phase of the Private Debt Collection program
During our December 2005 audit, we could not verify the IRS’ decision to purchase
commercially available software because the supporting documentation for the Exhibit 300 and
Alternatives Analysis was not always accurate, complete, and timely. As a result, we
recommended the Chief Information Officer revalidate the Alternatives Analysis, develop and
maintain adequate documentation to support the IRS’ decision to purchase commercially
available software, and revise the Exhibit 300 if warranted. As part of the revalidation process,
we recommended the IRS perform a quality review of all supporting documentation for the
Exhibit 300 to ensure the reliability of the documentation.
The Chief Information Officer agreed with our recommendation and planned the following
corrective actions:
     •   Hire a contractor to revalidate the Alternatives Analysis by developing new estimates
         (re-costing) for the Buy Alternative and the Build Alternative.
     •   Hire a contractor to help review the quality of the documentation developed to support
         the revalidation.
Based on our recommendation, the IRS hired a contractor, PRICE Systems, to estimate the
acquisition cost for the Build Alternative. The contractor used the PRICE TruePlanning®
applications and specific information provided by IRS employees to develop the estimate. We
believe this was a solid first step for the IRS, as the PRICE TruePlanning® applications consist of
industry-specific cost models, benchmarks, and experience obtained from previous projects and
research. The IRS reported that another contractor, MITRE Corporation, reviewed the quality of
the documentation developed to support the estimates. The IRS reported all corrective actions
related to our recommendation were complete in August 2006.
During Fiscal Year 2006, the IRS also implemented the first phase of the Private Debt Collection
program. In September 2006, the IRS assigned the initial inventory of collection cases to three
private collection agencies. As of December 2006, the IRS reported the 3 private collection
agencies had collected about $11 million.13



12
   A full-time equivalent is a measure of labor hours in which 1 full-time equivalent is equal to 8 hours multiplied by
the number of compensable days in a particular fiscal year. For Fiscal Year 2005, 1 full-time equivalent was equal
to 2,088 staff hours.
13
   Information obtained from IRS briefings related to the Private Debt Collection program. We did not verify the
accuracy of this information.
                                                                                                               Page 4
                                Complete Actions Were Not Taken to Validate
                               the Best Software Solution Was Chosen for the
                                      Private Debt Collection Program



Efforts to revalidate the Alternatives Analysis were narrowly focused
While the IRS did hire a contractor to provide an estimate for part of the Build Alternative, the
IRS’ efforts to revalidate its decision to purchase commercially available software for the Project
were incomplete. For example, neither the IRS nor its contractor estimated maintenance costs or
benefits for the Build Alternative. Additionally, the IRS did not develop estimates and
supporting documentation for the acquisition and maintenance costs for the Buy Alternative as
part of the revalidation.
IRS employees stated they never intended to develop supporting
documentation for the Buy Alternative. However, this statement
is not consistent with the corrective actions planned by the IRS to                 Corrective actions planned to
                                                                                        address our previous
address our recommendation, which included plans to develop                        recommendation were not fully
estimates for both the Build and Buy Alternatives. Without these                            implemented.
estimates and supporting documentation, it is not possible to
compare the Build and Buy Alternatives to identify the best
solution for the Project. Thus, the IRS cannot prove it spent
taxpayer funds wisely.
While we believe the preparation of estimates for the Build Alternative using industry cost
models and benchmarks was a positive first step to responding to our recommendation, we
identified two issues that could cause the estimated acquisition costs for the Build Alternative to
be overstated. The first issue relates to the growth of software during the acquisition phase.
During software acquisition, the planned size of the software being developed can increase
because of several factors, such as changes in customer needs. The IRS and the contractor
assumed the size of the software could grow by 50 percent during the acquisition phase. This
assumption appears to be high considering the IRS has a Business Rules and Requirements
Management Office14 and an Enterprise Life Cycle (ELC)15 in place to help mitigate excessive
software growth.
The second issue relates to the experience of the team that would be developing the software.
The IRS and the contractor assumed the system would be developed by a team with limited
experience. Therefore, Development Team Capability was assessed as “slightly experienced.”
Because the IRS intended to hire a contractor to complete 75 percent of the effort, we believe the
IRS would have hired an experienced contractor. Therefore, we believe the Development Team
Capability should have been assessed as having more experience.
IRS officials stated the assessments discussed above were developed by the contractor, and the
IRS should not revise conclusions made by an independent contractor. However, the

14
   The Business Rules and Requirements Management Office is designed to ensure projects have fully developed,
understood, agreed to, and documented rules and requirements, which should reduce the risk of significant software
growth.
15
   See Appendix IV for an overview of the ELC.
                                                                                                           Page 5
                                Complete Actions Were Not Taken to Validate
                               the Best Software Solution Was Chosen for the
                                      Private Debt Collection Program



assessments were developed based on information obtained from IRS officials. Additionally, the
IRS should challenge all contractor assessments that appear to be unreasonable.

The scope of the Project was significantly reduced
As we were completing our audit, the IRS implemented the last phase of the Private Debt
Collection program and cancelled the remaining phase. Due to earlier changes in scope, the
Project will be considered “steady state”16 by September 30, 2007. This will complicate matters
for the IRS as it prepares its next Exhibit 300, which is due to the Department of the Treasury in
June 2007, because Department regulations require a new Alternatives Analysis when there is a
significant change to the scope of a project. As a result, the IRS will need to provide updates for
all three viable alternatives. As mentioned previously, we determined the IRS does not have
complete support for the estimated costs and benefits for the Buy or Build Alternatives. Lastly,
the Project will be approaching steady state as it submits its next Exhibit 300. Once the Project
is considered steady state, it will no longer be required to prepare an Alternatives Analysis.
Therefore, it may not be cost effective to expend significant resources developing estimates and
supporting documentation for a new Alternatives Analysis.

Recommendation
Recommendation 1: The Chief Information Officer should work with officials from the
Department of the Treasury and the Office of Management and Budget to determine the level of
effort required to develop estimates and supporting documentation for a new Alternatives
Analysis for submission to the Department of the Treasury in June 2007.
        Management’s Response: The Chief Information Officer agreed with our
        recommendation and stated the IRS would use our observations as lessons learned for
        preparing future Alternatives Analysis. The Chief Information Officer also stated the
        IRS will commence working with the Department of the Treasury and the Office of
        Management and Budget to determine an appropriate solution for fulfilling the Exhibit
        300 requirements.




16
  Steady state refers to ongoing operations and support of the system, which begin after the business processes and
system have been installed and have begun performing business functions.
                                                                                                            Page 6
                                  Complete Actions Were Not Taken to Validate
                                 the Best Software Solution Was Chosen for the
                                        Private Debt Collection Program



                                                                                                       Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS revalidated its decision to
purchase commercially available software for the Filing and Payment Compliance Project. To
accomplish this objective, we:
I.       Determined whether the IRS had adequate (timely and reliable) supporting
         documentation for the estimated costs, benefits, and related financial indicators for each
         viable alternative1 for the Filing and Payment Compliance Project.
II.      Determined whether the revalidation performed by PRICE Systems provided assurance
         the estimates for each viable alternative are reliable.




1
 This step was performed only for the Buy Alternative and Build Alternative. It was not performed for the
alternative related to hiring additional staff because that alternative was not included in the President’s budget.
                                                                                                                 Page 7
                          Complete Actions Were Not Taken to Validate
                         the Best Software Solution Was Chosen for the
                                Private Debt Collection Program



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Troy D. Paterson, Audit Manager
James A. Douglas, Lead Auditor
Tina Wong, Senior Auditor
Olivia DeBerry, Auditor




                                                                                         Page 8
                         Complete Actions Were Not Taken to Validate
                        the Best Software Solution Was Chosen for the
                               Private Debt Collection Program



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer OS:CIO
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                 Page 9
                           Complete Actions Were Not Taken to Validate
                          the Best Software Solution Was Chosen for the
                                 Private Debt Collection Program



                                                                                 Appendix IV

                    Enterprise Life Cycle Overview

The ELC is the IRS standard approach to business change and information systems initiatives. It
is a collection of program and project management best practices designed to manage business
change in a successful and repeatable manner. The ELC addresses large and small projects
developed internally and by contractors.
The ELC includes such requirements as:
   •   Development of and conformance to an enterprise architecture.
   •   Improving business processes prior to automation.
   •   Use of prototyping and commercial software, where possible.
   •   Obtaining early benefit by implementing solutions in multiple releases.
   •   Financial justification, budgeting, and reporting of project status.
In addition, the ELC improves the IRS’ ability to manage changes to the enterprise; estimate the
cost of changes; and engineer, develop, and maintain systems effectively. Figure 1 provides an
overview of the layers, paths, phases, and milestones (shown as “MS” in Figure 1) within the
ELC Framework.




                                                                                         Page 10
                                                           Complete Actions Were Not Taken to Validate
                                                          the Best Software Solution Was Chosen for the
                                                                 Private Debt Collection Program



                                                                      Figure 1: ELC Framework
  Governance Management




                                                                                            Acquisition Management
                Layer




                                                                                             Program Management

                                                                                      Implementation Project Management
    Layer




                                                           MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                          Large Custom Path
                          Small Custom Path
  Solution Life Cycle




                          Commercial-Off-the-
                          Shelf Path             Vision and
                                                 Strategy /                           Domain                                          System           System       Operations and
         Layer




                          Joint Application                         Project                         Preliminary Detailed Design
                                                 Enterprise                         Architecture                                    Development      Deployment      Maintenance
                          Development /                        Initiation Phase                    Design Phase     Phase
                                                Architecture                           Phase                                           Phase           Phase            Phase
                          Rapid Application
                                                   Phase
                          Development Path
                          Iterative Custom
                          Path
  Methodology Solution




                                                Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
               Layer




                                                Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                  Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
     Layer




                                                                      Developer's Business Change or System Change Methodology



                                                                                  Enterprise Integration, Test, and Evaluation
  Specialty Areas




                                                                                  Business Rules Harvesting and Management
                                                                                             Transition Management
      Layer




                                                                                             Enterprise Architecture
                                                                                    Capital Planning and Investment Control
                                                                                              Security and Privacy
                                                                                  Requirements Development and Management

Source: Graphical representation of the ELC Framework modified from the ELC Guide.

ELC Layers
The ELC is a framework for organizing and using IRS directives, processes, procedures,
templates, and standards to accomplish business change. It is organized as a set of six interacting
layers.
           •               The Management Layer specifies how to plan and control business change programs,
                           projects, acquisitions, and solutions throughout the ELC.
           •               The Governance Layer specifies additional controls imposed from outside the project or
                           program.
           •               The Solution Life Cycle Layer specifies what should be done but not how to do it.
           •               The Solution Layer manages the solution as it is produced, including providing
                           standards for consistent solution specification and formal review of solution content.
                           This Layer provides control over work products that may be produced by multiple
                           internal and external developers using differing methodologies.


                                                                                                                                                                        Page 11
                                 Complete Actions Were Not Taken to Validate
                                the Best Software Solution Was Chosen for the
                                       Private Debt Collection Program



    •    The Methodology Layer details how to do the work and specifies a unique set of work
         products to be produced. Specific methodologies are not part of the ELC Framework.
    •    The Specialty Areas Layer provides additional guidance for areas of particular
         importance within the IRS. These areas include Enterprise Integration, Test, and
         Evaluation;1 Business Rules Harvesting2 and Management; Transition Management;3
         Enterprise Architecture; Capital Planning and Investment Control;4 Security and Privacy;
         and Requirements Development and Management.

ELC Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
ELC specifies a standard for the work required to produce and operate business change solutions,
there are multiple ways to approach and accomplish the required work. Paths are like alternate
roads, each of which crosses different terrain, but all of which lead to the same destination. The
ELC provides five distinct paths or approaches to developing systems:
    •    The Large Custom Path is for large projects.
    •    The Small Custom Path is for small projects.
    •    The Commercial-Off-the-Shelf Path is a commercial software-based approach.
    •    The Joint Application Development/Rapid Application Development Path is a highly
         accelerated, prototyping-based approach for very small, standalone solutions or solution
         components.
    •    The Iterative Custom Path is a hybrid approach that combines elements of the other
         approaches.

ELC Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS

1
  Enterprise Integration, Test, and Evaluation includes processes for integrating multiple components of a solution
and conducting various types and levels of testing on the solution.
2
  A business rule is a statement that defines or constrains some aspect of the business. Harvesting is a general term
used to broadly describe the entire set of activities involved in gathering, formalizing, analyzing, and validating
business rules for a particular scope.
3
  Transition Management helps ensure personnel and organizations are prepared to receive, use, operate, and
maintain the business processes and technology provided by business change solutions.
4
  The Capital Planning Investment and Control process manages a central portfolio of information technology
investments across the IRS.
                                                                                                             Page 12
                               Complete Actions Were Not Taken to Validate
                              the Best Software Solution Was Chosen for the
                                     Private Debt Collection Program



executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.
                              Figure 2: ELC Phases and Milestones
                                                     General Nature                       Concluding
              Phase                                      of Work                           Milestone
 Vision and Strategy/Enterprise   High-level direction setting. This is the only phase
                                                                                              0
 Architecture Phase               for enterprise planning projects.
 Project Initiation Phase         Startup of development projects.                            1
 Domain Architecture Phase        Specification of the operating concept, requirements,
                                                                                              2
                                  and structure of the solution.
 Preliminary Design Phase         Preliminary design of all solution components.              3
 Detailed Design Phase            Detailed design of solution components.                    4A
 System Development Phase         Coding, integration, testing, and certification of
                                                                                             4B
                                  solutions.
 System Deployment Phase          Expanding availability of the solution to all target
                                  users. This is usually the last phase for development       5
                                  projects.
 Operations and Maintenance       Ongoing management of operational systems.               System
 Phase                                                                                    Retirement
Source: The ELC Guide.




                                                                                                       Page 13
          Complete Actions Were Not Taken to Validate
         the Best Software Solution Was Chosen for the
                Private Debt Collection Program



                                                  Appendix V

Management’s Response to the Draft Report




                                                         Page 14
 Complete Actions Were Not Taken to Validate
the Best Software Solution Was Chosen for the
       Private Debt Collection Program




                                                Page 15
